        Fiscal Year 2008
 Inspector General Statement
             on the
Social Security Administration’s
    Major Management and
   Performance Challenges
           A-02-09-19074




         November 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                            SOCIAL SECURITY
                                   November 5, 2008


The Honorable Michael J. Astrue
Commissioner

Dear Mr. Astrue:

The Reports Consolidation Act of 2000 (RCA) (Pub. L. No. 106-531) requires that
Inspectors General provide a summary and assessment of the most serious
management and performance challenges facing Federal agencies and the agencies’
progress in addressing them. This review is enclosed. RCA requires that the Agency
place the final version of this Statement in its (FY) 2008 Performance and Accountability
Report.

In November 2007, we identified six significant management and performance
challenges facing the Social Security Administration for FY 2008.

    Social Security Number                         Internal Control Environment
     Protection                                      and Performance Measures
    Management of the Disability                   Systems Security and Critical
     Process                                         Infrastructure Protection
    Improper Payments and                          Service Delivery and Electronic
     Recovery of Overpayments                        Government

I congratulate you on the progress made during FY 2008 in addressing these
challenges. My office will continue to focus on these issues in FY 2009. I look forward
to working with you to continue improving the Agency’s ability to address these
challenges and meet its mission efficiently and effectively. I am providing you with the
Office of the Inspector General’s assessment of these six management challenges.

                                                Sincerely,


                                                S
                                                Patrick P. O’Carroll, Jr.
                                                Inspector General




              SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
                    Social Security Number Protection
In Fiscal Year (FY) 2008, the Social Security Administration (SSA) processed
approximately 6 million original and 12 million replacement Social Security number
(SSN) cards and received approximately $671 billion in employment taxes related to
earnings under assigned SSNs. Protecting the SSN and properly posting the wages
reported under SSNs are critical to ensuring eligible individuals receive the full benefits
due them.

SSA has taken significant steps over the past decade to improve controls in its
enumeration process, which have provided greater SSN integrity. Nevertheless, based
on our recent audit work, we continue to believe that additional steps need to be taken
regarding SSN assignment and protection. To further strengthen SSN integrity, SSA
should

   support legislation to limit public and private entities’ collection and use of SSNs and
    improve the protection of this information when obtained,
   work with the Internal Revenue Service (IRS) to develop alternatives to assigning
    SSNs to noncitizens who are authorized to work, but may only be in the country for a
    few months,
   continue its efforts to safeguard and protect personally identifiable information (PII),
    and
   improve the Enumeration at Entry process before its expansion.

Additionally, SSA is devoting resources to developing an on-line system for issuing
replacement SSN cards. While we support the Agency’s decision to offer more services
on-line to enhance customer service, we are concerned about the potential for
unscrupulous individuals to manipulate such a system, given the IRS’ experience with
fraud and abuse in its e-file program. Therefore, we believe SSA should develop
appropriate authentication measures to ensure a high level of security and identity
assurance before moving forward in offering on-line replacement SSN cards.

Maintaining the integrity of the SSN and Social Security programs also involves properly
posting earnings reported under SSNs. Properly posting earnings is essential in
determining whether individuals are eligible to receive retirement, survivor, and/or
disability benefits as well as to calculate the benefit amounts. If earnings information is
reported incorrectly or not reported at all, SSA cannot ensure all individuals eligible to
benefits are receiving the correct payment amounts. The Earnings Suspense File
(ESF) is the Agency’s record of annual wage reports for wage earners whose names
and/or SSNs fail to match SSA’s records. As of October 2007, the ESF had
accumulated approximately 275 million wage items for Tax Years 1937 through 2005,
representing about $661 billion in wages.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                      1
While SSA cannot control all of the factors associated with erroneous wage reports, it
can improve wage reporting by informing employers about potential SSN misuse cases,
identifying and resolving employer reporting problems, encouraging greater use of the
Agency’s employee verification programs, and enhancing the employee verification
feedback to provide employers with sufficient information on potential employee issues.
SSA can also improve coordination with other Federal agencies with separate, yet
related, mandates. For example, the Agency needs to work with the IRS to achieve
more accurate wage reporting. SSA also needs to work with the Department of
Homeland Security (DHS) to help resolve vulnerabilities we identified with the E-Verify
program (formerly the Basic Pilot), which is a DHS initiative, in which SSA participates,
that assists employers in verifying the employment eligibility of newly hired employees.
In June 2008, the Commissioner of Social Security expressed his desire to work with
DHS to help resolve some of the weaknesses with the E-Verify program. Specifically,
he expressed the need for SSA and DHS to develop a more stringent registration
process for E-Verify to reasonably guard against improper users registering and using
E-Verify.

SSA Has Taken Steps to Address this Challenge
Over the past decade, SSA has implemented numerous improvements to its
enumeration process. We recognize that with these new procedures, the enumeration
workload has increased in complexity for SSA personnel and resulted in some
difficulties or delays for SSN applicants. Despite these challenges, we believe SSA’s
improved procedures help ensure the Agency is properly assigning these very important
numbers. Some of SSA’s more notable enumeration improvements include the
following.

   Verifying the authenticity of most documents evidencing citizenship or lawful alien
    status before assigning an original SSN.
   Establishing six SSN Card Centers in Brooklyn and Queens, New York; Las Vegas,
    Nevada; Phoenix, Arizona (Downtown and North); and Orlando, Florida, which focus
    exclusively on assigning SSNs and issuing SSN cards.
   Requiring that field office personnel processing SSN applications use the Agency’s
    SS-5 Assistant, a Microsoft Access-based application intended to increase control
    over the SSN application process. This program provides field office personnel
    processing SSN applications structured interview questions and requires certain
    data to complete the application process. Additionally, SSA plans to implement a
    web-based enumeration system known as the SSN Application Process in the next
    few years.
   Strengthening the standards and requirements for identity documents presented with
    SSN applications to ensure the correct individual obtains the correct SSN.

SSA has also taken steps to reduce the size and growth of the ESF. The Agency offers
employers the ability to verify names and SSNs of their employees using the Agency’s
Social Security Number Verification Service (SSNVS), which is an on-line verification


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                 2
program. SSNVS allows employers to verify the information before reporting their
wages to SSA. As of August 2008, SSNVS had processed over 53 million verifications
for over 33,000 registered employers.

SSA also supports DHS in administering the E-Verify program. The program was
recently enhanced to include a Photo Screening Tool feature, which allows an employer
to check the photographs of a new hire's Employment Authorization Document or
Permanent Resident Card (Green Card) against images stored in DHS immigration
databases. As of June 2008, the E-Verify program had processed more than 4 million
verification requests for about 69,000 employers.

The Agency continues to modify the information it shares with employers. Under the
Intelligence Reform and Terrorism Prevention Act of 2004 (Pub. L. No. 108-458), SSA is
required to add both death and fraud indicators to the SSN verification systems for
employers, State agencies issuing drivers’ licenses and identity cards, and other
verification routines, as determined appropriate by the Commissioner of Social Security.
SSA added death indicators to those verification routines used by employers and State
agencies in March 2006 and added fraud indicators in August 2007.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)             3
                 Management of the Disability Process
Modernizing Federal disability programs, including SSA’s disability programs, has been
included on the Government Accountability Office’s (GAO) high-risk list since FY 2003
due, in part, to outmoded concepts of disability, as well as ongoing challenges to make
timely, accurate, and consistent decisions. Moreover, at the forefront of congressional
and Agency concern is the timeliness of SSA’s disability decisions at the hearings
adjudicative level. The average processing time at the hearings level continues to
increase—from 293 days in FY 2001 to 514 in FY 2008. Additionally, the pending
workload continues to increase. At the end of FY 2008, the pending workload was
760,813 cases—up from 746,744 in FY 2007 and almost double the 392,387 cases in
FY 2001.

As of October 2008, we were conducting a review to determine overall average
processing times at each stage of the process—disability determination services (DDS),
ALJ hearing, Appeals Council, and the Federal Courts. We expect to complete this
work in FY 2009 and provide some insights into the process by taking a big-picture look
at the whole process from the claimant’s perspective—from the time they apply until
they receive a check or exhaust all appeals. We will follow this with another review in
FY 2009 where we will obtain information directly from disability claimants on how their
lives were impacted by the length of the disability process.

In our February 2008 review of administrative law judges’ (ALJ) caseload performance,
we found that the Office of Disability Adjudication and Review’s (ODAR) ability to
process projected hearing requests and address the growing backlog of cases will
continue to be negatively impacted by the caseload performance of some ALJs if their
status quo performance levels continue. Accordingly, we recommended that SSA
establish a performance accountability process that allows ALJ performance to be
addressed when it falls below an acceptable level.

In August 2008, we issued a follow-up report to Congress highlighting that ALJs have
varying levels of productivity (both high and low productivity) for internalized reasons,
such as motivation and work ethic. We also reported on factors impacting ALJ and
hearing office productivity and processing times, including hearing office staff levels,
hearing dockets, favorable rates, individual ALJ preferences, Agency processes and
DDS case development. In another review for Congress, we assessed the
organizational culture at the DDS for approving and denying disability claims. This
congressional request was precipitated by a media story that SSA maintains a culture to
deny disability claims. In our August 2008 report, we stated that the weight of the
evidence does not support the allegation that there is a culture to deny within the DDSs.

In other audits, we highlighted the need for greater oversight of ALJ training programs
as well as improved management information. In our April 2008 review of the
Association of ALJ’s training conference costs, we found the Agency was supporting
ALJ training as a way to improve ALJ productivity but could implement better controls
over expenditures and attendance by running such conferences in-house. Our


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                 4
June 2008 report on the timeliness of medical evidence assessed the availability of
management information at the hearing office and national level to assist managers in
monitoring timeliness trends. After we identified an area where more accurate coding of
hearing activity could improve the management information, the Agency issued new
guidance to hearing offices instructing them on the proper use of these codes.

SSA Has Taken Steps to Address this Challenge
SSA’s FY 2008 Semiannual Report detailed its plan to eliminate the backlog of hearing
requests and prevent its recurrence. The Commissioner’s plan focused on
(1) compassionate allowances, (2) improving hearing office procedures, (3) increasing
adjudicatory capacity and (4) increasing efficiency with automation and improved
business processes. However, it may take time for these new initiatives and additional
resources to lead to a reduction in the backlog. As we noted earlier, the backlog of
hearing requests in FY 2008 was actually greater than it was at the end of FY 2007.

         Compassionate Allowances. This initiative builds on the success of the Quick
Disability Determination process that identifies and allows benefits to applicants who are
obviously disabled. SSA has been developing and expanding the use of automated
screening tools to identify the types of cases that fall under the compassionate
allowances initiative. SSA is also refining its rules, regulations, and listing codes to
reflect current advances in medical science. When SSA announced this initiative in
FY 2007, the expectation was that 3 to 10 percent of new claims would be decided as
compassionate allowances. However, this initiative is still in its infancy, and we expect
to initiate a review in this area to determine whether it is helping address the backlog of
hearing requests and prevent its recurrence.

         Improve Hearing Office Procedures. As part of the two initiatives under this
effort, in FY 2007 SSA focused on eliminating the backlog of aged cases that would be
1,000 days or older by the end of the FY and successfully reduced the backlog of
1,000 day-old cases to just over 100 cases. In FY 2008, SSA redefined aged cases to
those that would be 900 days old or older by the end of FY 2008 and reduced the
number of such cases from 135,160 to 281 cases.

       Increase Adjudicatory Capacity. One of six initiatives is to improve ALJ
productivity. Under this initiative, the Chief ALJ requested that each ALJ issue 500 to
700 dispositions per year. This initiative also includes appropriate training to assist
ALJs with these workloads. Another initiative is hiring new ALJs. In FY 2008, SSA
hired 190 new ALJs.

       Increase Efficiency with Automation and Improved Business Process. One
of 27 initiatives is transitioning to the electronic folder. Under this initiative, all DDSs
and ODAR offices are transitioning from processing disability claims using paper folders
to using electronic folders. Other initiatives in this area include electronic case file
assembly, electronic scheduling, centralized printing and mailing, enhanced hearing
office management information and expanded use of video hearings.


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                  5
We continue to work with SSA to address the integrity of the disability program through
the Cooperative Disability Investigations (CDI) program. The CDI program’s mission is
to obtain evidence that can resolve questions of fraud in SSA’s disability claims. Since
the program’s inception in FY 1998, the 19 CDI units, operating in 17 States, have been
responsible for over $1 billion in projected savings to SSA’s disability programs and
approximately $665 million in projected savings to non-SSA programs. This effort will
be further assisted in the new FY with the opening of a 20th CDI unit in Little Rock,
Arkansas, October 2008.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)              6
      Improper Payments and Recovery of Overpayments
Workers, employers, and taxpayers who fund SSA and Supplemental Security Income
(SSI) programs deserve to have their tax dollars effectively managed. As a result, SSA
must be a responsible steward of the funds entrusted to its care and minimize the risk of
making improper payments. SSA strives to balance its service commitments to the
public with its stewardship responsibilities. However, given the size and complexity of
the programs the Agency administers, some payment errors will occur.

Since SSA is responsible for issuing timely benefit payments for complex entitlement
programs to millions of people, even the slightest error in the overall process can result
in millions of dollars in over- or underpayments. In FY 2007, SSA issued over
$612 billion in Old-Age, Survivors and Disability Insurance (OASDI) and SSI benefit
payments to about 54 million people. A January 2008 Office of Management and
Budget (OMB) report, Improving the Accuracy and Integrity of Federal Payments, noted
that nine Federal programs—including SSA’s OASDI and SSI programs—accounted for
more than 90 percent of the improper payments in FY 2007.

The reduction of improper payments is one of SSA’s key strategic objectives. In
addition, elimination of improper payments is one of the program initiatives in the
President’s Management Agenda (PMA), a Government-wide initiative for improving
financial performance. In furtherance of this initiative, Congress passed the Improper
Payments Information Act of 2002 (Pub. L. No. 107-300), and OMB issued
implementing guidance clarifying the definition of an improper payment and OMB’s
authority to require that agencies track programs with low error rates (that is, less than
2.5 percent) but significant improper payment amounts.

We issued a report in 2006 on overpayments in SSA’s disability programs in which we
estimated that SSA had not detected about $3.2 billion in overpayments and had paid
about $2.1 billion in benefits annually to potentially ineligible beneficiaries. Although
SSA tries to achieve a balance between stewardship and service, it has been a
challenge due to the resources required to conduct an adequate number of medical and
work-related continuing disability reviews (CDR). Although the Agency had special
funding for CDRs in FYs 1996 through 2002 and SSA’s data show that CDRs save
about $10 for every $1 spent to conduct them, the Agency has cut back on this
workload.

SSA Has Taken Steps to Address this Challenge

SSA has been working to improve its ability to prevent over- and underpayments by
agreeing to and then implementing OIG audit recommendations. For example, in
March 2008, we issued a report identifying $7.6 million in overpayments to auxiliary
beneficiaries because SSA's records did not have their SSNs on its payment records;
and as a result, the Agency's data matching efforts did not detect that these individuals
were incorrectly paid. When we issued the report, SSA had already recovered
$3.1 million (41 percent) of the improper payments.


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                    7
We also issued a report in May 2008 showing that an estimated 2,088 SSI recipients
were overpaid about $24.8 million because they did not report their marriage to SSA.
As a result, the Agency is taking corrective action to stop the improper payments and
collect the overpayments. Additionally, in an April 2008 report, we determined that
despite SSA’s efforts to identify residency violations, about $226.2 million in
overpayments went undetected because about 40,560 recipients did not inform SSA of
their absence from the United States. SSA agreed with our recommendation to obtain
and analyze electronic bank statement information to prevent these types of
overpayments in the future. In two other 2008 reports we identified approximately
$467 million in underpayments were owed to about 395,000 beneficiaries.

We will continue to work with SSA to identify improper payments in its programs and
recommend improvements to prevent them from occurring in the future.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               8
 Internal Control Environment and Performance Measures
Sound management of public programs includes both effective internal controls and
performance measurement. Internal control comprises the plans, methods, and
procedures used to meet missions, goals, and objectives. The Federal Managers’
Financial Integrity Act of 1982 (FMFIA) (Pub. L. No. 97-255) requires that the Agency
establish management controls and financial systems that provide reasonable
assurance the integrity of Federal programs and operations is protected. It also
requires that the Commissioner, based on an evaluation, provide an annual Statement
of Assurance on whether SSA has met this requirement. Similarly, OMB Circular
A-123, Management’s Responsibility for Management Control, which is issued under
the authority of FMFIA, requires that the Agency and its managers take systematic and
proactive measures to develop and implement appropriate, cost-effective internal
control for results-oriented management. Accordingly, SSA management is responsible
for determining, through performance measurement and systematic analysis, whether
the programs it manages achieve intended objectives.

In FY 2008, the Commissioner reported that SSA could provide reasonable assurance
that its internal controls over the effectiveness and efficiency of its operations and
compliance with applicable laws and regulations was operating effectively, and no
material weaknesses were found in the design or operations of the internal controls as
of September 30, 2008. While we do not question the Commissioner’s conclusion, we
realize that SSA’s overall control environment can be free of material weaknesses but
still have room for improvement.

Establishing appropriate controls over the development of disability claims under the
Disability Insurance (DI) and SSI programs is one of the main processes for which SSA
is responsible. Disability determinations under DI and SSI are performed by DDSs in
each State or other responsible jurisdictions in accordance with Federal regulations.
Each DDS is responsible for determining claimants’ disabilities and ensuring adequate
evidence is available to support its determinations. SSA reimburses the DDS for
100 percent of allowable expenditures up to its approved funding authorization. In
FY 2008, SSA allocated over $1.8 billion to fund DDS operations.

From FYs 2000 through 2008, we conducted 72 DDS administrative cost audits. In
40 of the 72 audits, we identified internal control weaknesses and over $114 million that
SSA reimbursed to the States that was not properly supported or could have been put
to better use. Nine of the 72 audits conducted were completed in FY 2008. Six of these
audits noted similar internal control weaknesses identified in previous DDS audits and
over $4 million of questioned costs and/or funds that could have been put to better use.
We believe the large dollar amounts expended by DDSs and the related internal control
issues we identified warrant this issue remaining a major management challenge.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                9
    Another area that requires sound management and effective internal control is the
    selection and oversight of contractors assisting the Agency in meeting its mission. In
    FY 2008, SSA spent over $881 million on contracts. We reviewed two of SSA’s
    contracts in FY 2008. We generally found that the costs claimed for services provided
    by the contractors involved were reasonable and allowable but found room for
    improvement. For example, temporary badges assigned to some contract employees
    improperly had a “not-to-exceed date” that extended beyond the end of the contract
    period. Accordingly, the contract employees could have gained access to SSA facilities
    after they were no longer working on the contract. Also, the contract employees
    working status with SSA was not accurately reflected in suitability records. We believe
    ensuring proper oversight and controls over its contracts is inherently a major
    management challenge for SSA due to the total dollar amounts awarded and risks
    involved with contractors adequately delivering services and meeting contract
    objectives.

    The use of performance measures provides SSA with information about program results
    and service quality. The Government Performance and Results Act of 1993 (Pub. L.
    No. 103-62) and the PMA require the identification of outcome measures that accurately
    monitor programs’ performance. Also, SSA managers need sound information to
    monitor and evaluate performance. In FY 2008, we issued four audits that addressed
    eight of SSA’s performance measures. All four audits released in FY 2008 were based
    on work initiated in FY 2007 and completed in FY 2008. The eight performance
    measures addressed in these four reports are listed below.

     Maintain the number of initial disability      Number of periodic CDRs processed to
      claims pending in the DDS (at/below             determine continuing entitlement based
      FY 2007/2008 goal)                              on disability
     DDS net accuracy rate (allowances and          Number of SSI non-disability
      denials combined)                               redeterminations processed
     Number of SSI disabled beneficiaries           SSA hearings case production per
      earning at least $100 per month                 workyear
     Remove 3 percent of the earnings               Issue annual SSA-initiated Social
      items that remain in the ESF for a new          Security Statements to eligible individuals
      tax year and post the earnings to the           age 25 and older
      correct earnings records

    We concluded that the data used for two of the eight measures were reliable, and the
    data used for the remaining six were unreliable. Generally, when data were determined
    to be unreliable, it was due to weaknesses in internal or access controls over the
    systems used to collect and process it. Due to the control weaknesses, the data were
    not sufficiently secure to be certain of their integrity. The challenge SSA faces in this
    area is ensuring that it has reliable management information when making strategic and
    operational plans.




    FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                10
SSA Has Taken Steps to Address this Challenge
SSA has taken steps to develop internal controls over its operations and contractor
performance and in developing sound performance data. SSA has generally agreed
with our recommendations that address internal control weaknesses associated with
DDSs and has taken the recommended steps to ensure reimbursements provided to
DDSs are allowable and properly supported. Additionally, SSA is working to limit the
number of employees who have access and the ability to change data in its
performance data collection systems to help ensure the integrity of its management
information.

While the Agency has taken steps to address our recommendations, we will continue to
audit DDSs and SSA’s contracts in the upcoming FY. Additionally, we plan to audit a
number of grants SSA has awarded to ensure it has proper controls over the funds
provided to grantees and the funding leads to the desired impact of the grants. Given
the large dollar amounts involved and the importance of the work provided by DDSs,
contractors and grantees, we believe it is important to monitor SSA’s oversight of these
entities, ensuring that funds are spent appropriately and critical missions are met.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)              11
   Systems Security and Critical Infrastructure Protection
The vulnerability of critical infrastructures and the unique risks associated with
networked computing have been recognized for some time. Federal agencies rely
heavily on information technology to run their daily operations and deliver products and
services. With an increasing reliance on information technology, a growing complexity
of Federal information technology infrastructure, and a constantly changing information
security threat and risk environment, information security has become a mission-
essential function.

SSA’s information security challenge is to understand and mitigate system
vulnerabilities. Weaknesses in controls over physical and logical access to its electronic
information, technical security configuration standards, suitability and continuity of
systems operations have been identified. The information security challenge extends to
the Agency’s ability to properly maintain its operations and recover from a disaster.
While many of these weaknesses have been resolved, SSA needs to monitor these
issues diligently to ensure they do not recur. This means ensuring the security of its
critical information infrastructure and sensitive data. Federal agencies maintain
significant amounts of personal information concerning individuals, often referred to as
PII. The loss of PII can result in substantial harm, embarrassment, and inconvenience
to individuals and may lead to identity theft or other fraudulent use of the information.

Incidents of Federal agencies losing PII demonstrate the importance of data security.
The public will be reluctant to use electronic access to SSA services if it does not
believe the Agency’s systems and data are secure. Without due diligence, sensitive
information can become available to those who are not entitled to it and may use it for
personal gain. For example, in June 2008, we reported that since January 2004, the
publication of the Death Master File (DMF) has resulted in the breach of PII for over
20,000 living individuals erroneously listed as deceased on the DMF. To address
increasing workloads and the changing work environment, SSA constantly assesses
and implements new technologies, such as the Internet Protocol version 6 and Voice
over Internet Protocol. New technology often brings advantages but also presents new
security challenges. SSA needs to understand and address potential risks before such
technology is implemented.

SSA Has Taken Steps to Address this Challenge

SSA addresses critical information infrastructure and systems security in a variety of
ways. For example, it created a Critical Infrastructure Protection work group to ensure
continued compliance with various directives, such as the Homeland Security
Presidential Directives (HSPD) and Federal Information Security Management Act of
2002 (FISMA) (Pub. L. No. 107-347). HSPD 12 mandates the development of a
common identification standard for all Federal employees and contractors. Federal
Information Processing Standard 201, Personal Identity Verification of Federal
Employees and Contractors, was developed to satisfy the requirements of HSPD 12.
SSA worked with other agencies and OMB to address HSPD 12 and comply with


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)              12
Personal Identity Verification. To date, SSA has issued more than 63,000 Personal
Identity Verification compliant credentials to employees and contractor personnel and is
on target to issue credentials to all 85,000 employees by September 30, 2008.

To meet FISMA requirements, SSA and we annually evaluate SSA's security program.
FISMA requires that agencies institute a sound information security program and
framework. Since the inception of FISMA, we have worked with the Agency to ensure
prompt resolution of security issues. The House Oversight and Government Reform
Committee rated SSA "A+" for FY 2007 on its computer security based on its
compliance with the OMB FISMA reporting guidance. This guidance merely requires
that Federal agencies report on the status of certain elements of their information
security programs. Reporting under these criteria does not ensure a lack of system
security deficiencies.

Even though SSA is substantially compliant with the OMB FISMA requirements, there
are several system security areas that the Agency could improve upon. SSA needs to
ensure (1) controls to protect PII are fully developed and implemented in accordance
with OMB guidance; (2) adequate incident response and reporting policies and
procedures are implemented Agencywide; (3) system access controls are fully
implemented to meet least privilege criteria for all users of SSA systems; (4) systems
are sufficiently tested to fully meet FISMA requirements; and (5) all contractor personnel
are appropriately suitability tested and receive annual security awareness training.

Additionally, SSA has taken steps in the area of PII. The Agency has established a PII
Executive Steering Committee, which provides oversight and recommendations on SSA
policy, and the PII Breach Response Group whose role is to engage in Agency planning
if a breach occurs. SSA has developed strict policies and procedures for employees to
protect PII. In May 2008, SSA began notifying the U.S. Computer Emergency
Readiness Team, a partnership between DHS and the public and private sectors
established to protect the Nation's Internet infrastructure, that individuals were
erroneously included in the DMF. SSA is also completing an assessment of the risks
involved with the affected individuals and developing an appropriate notification policy
for these individuals. Because of the critical nature of PII, we plan to audit SSA’s
compliance with its own PII polices in the coming FY.

SSA’s most important asset is the sensitive information in its databases. To ensure
effective use of these databases in the future, SSA is converting them from legacy
systems to more commercially used applications. This will take several years to
complete. Additionally, in recent years, the need to recover from a disaster or
significant event has become increasingly evident. To better enable itself to recover
from such an event, SSA is building a second Data Center to handle some of the
current workload of SSA’s primary data center and temporarily replace the primary data
center in the event of a significant incident. SSA plans to begin occupancy of this
facility in January 2009, but there have been delays to the original occupancy date.
Because of the importance of the new data center, we plan to continue to monitor SSA’s
progress.



FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)              13
            Service Delivery and Electronic Government
Two of SSA’s strategic goals in effect in FY 2008 were to deliver high-quality, “citizen-
centered” service and to strategically manage and align staff to support the mission of
the Agency. The service goal encompassed traditional and electronic services to
applicants for benefits, beneficiaries, and the general public. It included services to and
from States, other agencies, third parties, employers, and other organizations, including
financial institutions and medical providers. The staff goal focused on the Agency’s
strategies for maintaining a high-performing workforce that is prepared to deliver quality
service to the American public. This management challenge includes such areas as the
Representative Payee Process, Managing Human Capital, and Electronic Government.

When SSA determines a beneficiary cannot manage his or her benefits, it selects a
representative payee who must use the payments for the beneficiary’s interests. There
are approximately 5.4 million representative payees who managed about $52.7 billion in
annual benefit payments for approximately 7.2 million beneficiaries. While
representative payees provide a valuable service for beneficiaries, SSA must provide
appropriate safeguards to ensure its responsibilities are met to the beneficiaries it
serves.

Representative payees continue to be a significant challenge for SSA. Most notably,
SSA needs to improve its identification of incapable beneficiaries in need of
representative payees; selection of suitable representative payees; and subsequent
monitoring to ensure beneficiaries’ funds are properly managed. Our audits and
investigations of representative payees have found significant problems with the
management of beneficiaries’ funds that, in some cases, had been occurring for several
years in spite of SSA’s previous identification of these problems. We are also
concerned that SSA may not be aware of aged beneficiaries who may be in need of
representative payees. We have found that as many as 50 percent of individuals over
the age of 85 may suffer from some form of dementia or Alzheimer’s disease; however,
only 4.4 percent of SSA beneficiaries over age 85 have representative payees. We also
identified several instances of beneficiaries who may need representative payees since
their payments were sent “in-care of” nursing homes. We plan to conduct reviews
focused on this population of beneficiaries who may need a representative payee but do
not have one. In July 2007, the National Academy of Sciences (NAS) issued a report,
Improving the Social Security Representative Payee Program: Serving Beneficiaries
and Minimizing Misuse. The report contained 28 recommendations to improve SSA’s
representative payee program. In FY 2008, we identified several problematic conditions
during our reviews of SSA’s representative payee process. We plan a number of
reviews that will provide information to the Agency as it attempts to implement the NAS
recommendations.

GAO has included strategic human capital management on its list of high-risk Federal
programs and operations since FY 2001. Further, Strategic Management of Human
Capital is one of five Government-wide initiatives contained in the PMA. By the end of
2012, SSA projects its DI rolls will have increased by 35 percent. Further, the Agency


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               14
projects 53 percent of its employees will be eligible to retire by FY 2017. It is expected
this will result in a loss of institutional knowledge that will affect SSA’s ability to deliver
quality service to the public.

SSA is being challenged to address its human capital shortfalls. The growing workload
and retirement wave are expected to have a significant impact on SSA’s ability to
deliver quality service to the public. For SSA field offices to continue providing the
quality service its customers expect, we believe training is needed to enable staff to
remain current on Agency policies, procedures, operations, and changes in technology.
Thus, the Agency’s succession planning related to automated workloads is a concern.
In a review of SSA field offices’ training of staff, we found SSA had a structured training
program, and the training was accessible to field office employees. We also found most
Claims and Service Representatives responding to our questionnaire were satisfied that
the general and disability-related training received for their position had helped them do
their job effectively and efficiently, and the training was provided timely. However, most
staff perceived the existence of barriers that prevented them from receiving training
needed to perform their duties; and a lack of communication with management and
expressed a need for SSA to improve the training experience. Furthermore, it is
imperative that staff in mission-critical occupations possess certain competencies. We
plan to examine the issue of competency gaps for mission-critical occupations during
the upcoming FY.

In a review of SSA’s Electronic Services (eServices), we found that over the last
9 years, SSA has automated more of its workload and is attempting to conduct more of
its business with the public using eServices. However, SSA must overcome several
challenges to meet its Internet services goals including increasing its use, implementing
planned enhancements, and addressing critical issues. Additionally, as the Agency
implements its planned expansion of eServices, it also needs to develop appropriate
authentication measures tailored to each electronic application to identify individuals
and maintain the security of SSA’s most sensitive information. We plan to continue to
monitor SSA’s steps to address these challenges.

Although SSA’s Internet retirement application is one of the highest rated Internet
applications in the Government, SSA reported that only 15.2 percent of retirement
benefit claims were filed through the Internet in FY 2008. According to Commissioner
Astrue, the Agency’s online filing percentage will need to increase to 50 percent within
the next 5 years “in order to keep field offices from being totally overwhelmed.” The
Agency believes maximizing the use of modern technology and changing the service
delivery model will enable SSA to continue to provide critical services to all future
beneficiaries. The Agency was able to issue a number of improvements to the Internet
retirement application in September 2008. However, some of the planned
improvements were postponed. The application status enhancement is planned to be
released at the same time the Agency releases iClaim -- its new online application for
Social Security Benefits which will replace the Internet Social Security Benefits
Application.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                     15
SSA Has Taken Steps to Address this Challenge
SSA has taken some actions to address the challenges of its representative payee
process. SSA provided to Congress its response to the NAS report in April 2008. The
Agency agreed with most of the recommendations made by NAS. For example, SSA
agreed to redesign the Representative Payee System, which is SSA’s database of
representative payees. SSA also committed to developing an interactive video training
initiative to provide better training to its employees. Additionally, SSA agreed with our
report recommendations to address issues related to the suitability of representative
payees who are geographically separated from the beneficiaries they serve when they
conduct representative payee reviews. SSA also agreed to correct Representative
Payee System records where information does not match the Master Beneficiary and
Supplemental Security Records. Further, SSA agreed to follow up with organizational
payees to recover debts owed to SSA. Finally, SSA has self-initiated random reviews of
individual representative payees servicing fewer than 15 beneficiaries and
organizational representative payees serving fewer than 50 beneficiaries.

As of September 30, 2008, SSA scored “green” in both “Current Status” and “Progress
in Implementing the PMA” for Human Capital on the Executive Branch Management
Scorecard. The Scorecard tracks how well the departments and major agencies are
executing the five Government-wide management initiatives.

SSA has implemented various strategies to address its human capital challenges, such
as filling positions before key vacancies occur, using understudies in targeted positions,
conducting leadership symposiums to strengthen knowledge and skills of mid-level
managers and developing plans to minimize competency gaps in mission critical
occupations. The Agency reported that it also redirected and established new priorities
to address its service delivery challenges. One of the priorities was to increase
efficiency through technology. SSA reported using speech technology for the National
800-Number Network to reduce call handle-time, increase overall accuracy, and
improve efficiency by reducing the time callers spend navigating through menu prompts.
The Agency also released a newly redesigned Social Security Online homepage to
make the website more user-friendly and to help reduce the number of unnecessary
trips to the local Social Security office.

GAO reported SSA field offices largely met work demands between FYs 2005 and
2007, despite operating with fewer staff and an increased demand for services. To
manage the workload, field offices shared work among offices and redirected staff to
meet critical needs. The Agency also encouraged customers to make greater use of
Internet and other eServices.

Studies have shown that the public wants to conduct more business via the Internet,
and SSA has taken steps to address the challenges of offering eServices to the public.
Since the Agency publicized that the first baby boomer to file for retirement used the
Internet to file her claim, it has seen a 43-percent increase in the number of retirement
applications filed on-line. SSA’s Internet retirement application is one of the highest


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               16
rated Internet applications in the Government, and the Agency estimates that Internet
retirement claims have saved adjudicators an average of 13 minutes, up from 9 minutes
in 2006. Furthermore, SSA has been successful in familiarizing field office staff with the
Internet application, with almost two-thirds of the staff saying it was very easy to assist
the public when asked questions regarding the application. SSA plans to implement a
redesigned Internet retirement application that features easier navigation and simple
on-screen help and will only ask questions pertinent to an individual’s personal situation
based on information already housed in SSA’s electronic records.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)                17
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)
                                                                       Appendix A

Acronyms

 ALJ              Administrative Law Judge
 CDI              Cooperative Disability Investigations
 CDR              Continuing Disability Review
 DDS              Disability Determination Services
 DHS              Department of Homeland Security
 DI               Disability Insurance
 DMF              Death Master File
 eServices        Electronic Services
 ESF              Earnings Suspense File
 FISMA            Federal Information Security Management Act of 2002
 FMFIA            Federal Managers’ Financial Integrity Act of 1982
 FY               Fiscal Year
 GAO              Government Accountability Office
 HSPD             Homeland Security Presidential Directive
 IRS              Internal Revenue Service
 NAS              National Academy of Sciences
 OASDI            Old-Age, Survivors and Disability Insurance
 ODAR             Office of Disability Adjudication and Review
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 PII              Personally Identifiable Information
 PMA              President’s Management Agenda
 Pub. L. No.      Public Law Number
 RCA              Reports Consolidation Act of 2000
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number
 SSNVS            Social Security Number Verification Service

FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)
                                                                       Appendix B

Related Office of the Inspector General Reports
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
                        Social Security Number Protection

Social Security Number Misuse for Work and the Impact on the
Social Security Administration's Master Earnings File                 September 29, 2008
(A-03-07-27152)

Quick Response Evaluation: Controls over the Social Security
Administration's Celebrity File (Limited Distribution)                September 9, 2008
(A-08-08-28118)

Effectiveness of the Social Security Statement in Correcting
                                                                      August 27, 2008
Earnings Records (A-15-07-17089)

Social Security Cards Mailed to the Social Security
                                                                      August 19, 2008
Administration's Field Offices (A-09-07-27154)

Follow-up: The Social Security Administration's Internal Use of
                                                                      June 9, 2008
Employees' Social Security Numbers (A-13-07-27164)

Personally Identifiable Information Made Available to the
                                                                      June 4, 2008
General Public Via the Death Master File (A-06-08-18042)

The Social Security Administration's Compliance with
Intelligence Reform and Terrorism Prevention Act of 2004
                                                                      May 21, 2008
Provisions Regarding Security of Social Security Cards and
Numbers (A-08-08-18058)

Assignment of Social Security Numbers to Noncitizens with
                                                                      May 6, 2008
Fiancé Visas (A-08-07-17044)

Removing Social Security Numbers from Medicare Cards
                                                                      May 2, 2008
(A-08-08-18026)

Follow-up: Assessment of the Enumeration at Entry Process
                                                                      March 20, 2008
(A-08-07-17143)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               B-1
  Management Challenge Area, Report Title and                               Report
        Common Identification Number                                        Issued
Controls for Issuing Social Security Number Verification
                                                                      December 5, 2007
Printouts (A-04-07-27112)

The Social Security Administration's Controls over
Redisclosure of Sensitive Information in the Kansas City              November 28, 2007
Region (A-07-07-17055)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)            B-2
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued
                      Management of the Disability Process

Medical Consultant Contracts (A-02-07-17050)                          September 30, 2008

Hearing Office Remand Processing (A-12-08-28036)                      September 29, 2008

Congressional Response Report: Disability Determination
                                                                      August 14, 2008
Services Disability Decisions (A-15-08-28114)

Accuracy of Title II Disability Insurance Benefits Processed with
                                                                      August 13, 2008
Workers' Compensation Settlements (A-04-07-17059)

Ticket to Work and Self-Sufficiency Program Cost Effectiveness
                                                                      August 11, 2008
(A-02-07-17048)

Congressional Response Report: Administrative Law Judge and
                                                                      August 8, 2008
Hearing Office Performance (A-07-08-28094)

Quick Response Evaluation: Timeliness of Medical Evidence at
                                                                      June 13, 2008
Hearing Offices (A-05-08-28106)

Association of Administrative Law Judges' Training Conference
                                                                      April 7, 2008
Costs (A-12-08-28037)

Administrative Law Judges' Caseload Performance
                                                                      February 6, 2008
(A-07-07-17072)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               B-3
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
             Improper Payments and Recovery of Overpayments

The Social Security Administration’s Computation of Delayed
                                                                      September 22, 2008
Retirement Credits (A-09-07-17135)

The Social Security Administration's Use of Administrative
Sanctions in the Old-Age, Survivors and Disability Insurance          September 19, 2008
Program (A-07-07-17052)

Automated One-Time Payments (A-06-08-18035)                           September 19, 2008


Administrative Wage Garnishment (A-13-08-28009)                       September 18, 2008

Dually Entitled Beneficiaries Who are Subject to Government
Pension Offset and the Windfall Elimination Provision                 September 10, 2008
(A-09-07-27010)

Accuracy of Title II Disability Insurance Benefit Triennial
                                                                      September 9, 2008
Redeterminations for 2006 (A-04-07-17078)

Status of Title II Installment Agreements (A-02-08-18074)             September 5, 2008

Unprocessed Manual Recalculations for Title II Payments
                                                                      August 14, 2008
(A-03-07-17090)

Supplemental Security Income Recipients with Excess Income
                                                                      July 23, 2008
and/or Resources (A-01-08-18022)

Title II Benefits to Fugitive Felons and Probation or Parole
                                                                      July 2, 2008
Violators (A-01-07-17039)

Benefit Payments in Instances Where the Social Security
Administration Removed a Death Entry from the Beneficiary's           June 19, 2008
Record (A-06-07-27156)

Underpayments Payable on Behalf of Terminated Title II
                                                                      June 9, 2008
Beneficiaries (A-09-07-17160)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               B-4
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued
Quick Response Evaluation: Underpayments to Widows
                                                                      May 22, 2008
(A-01-08-28116)

Supplemental Security Income Recipient Marriages Not
                                                                      May 19, 2008
Reported to the Social Security Administration (A-01-07-27109)

Joint Social Security and Canadian Beneficiaries Residing in
                                                                      May 2, 2008
the United States (A-01-05-25124)

Supplemental Security Income Recipients with Automated
Teller Machine Withdrawals Indicating They Are Outside the            April 23, 2008
United States (A-01-07-17036)

Follow-up on the Impact on the Social Security Administration's
Programs When Auxiliary Beneficiaries Do Not Have Their Own           March 14, 2008
Social Security Numbers (A-01-07-17038)

Adjustment of Disabled Wage Earners' Benefits at Full
                                                                      March 14, 2008
Retirement Age (A-09-07-17134)


Adjustments of Overpayment Balances Related to Title II
                                                                      January 22, 2008
Critical Payments (A-04-07-17028)


Social Security Administration Employees Receiving Benefits
                                                                      December 12, 2007
(A-01-07-27116)

Controls over Miscellaneous Payments Made Through the
                                                                      October 25, 2007
Single Payment System (A-09-07-17119)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)              B-5
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
        Internal Control Environment and Performance Measures

Quick Response Evaluation: Individuals Withdrawing Title II
                                                                     September 30, 2008
Benefit Applications (A-05-08-28110)

Administrative Costs Claimed by the New Mexico Disability
                                                                     September 29, 2008
Determination Services (A-06-08-18034)

The Social Security Administration's Contract with Unified
Consultants Group, Inc., Contract Number SS00-05-60015               September 26, 2008
(A-15-08-18033)

Controls over the Social Security Administration's Transit
                                                                     September 11, 2008
Subsidy Program (A-02-08-18050)

Cherry Engineering Support Services, Inc., Indirect Cost Rate
Proposal for Fiscal Year 2006 (Limited Distribution)                 August 21, 2008
(A-15-08-18086)

Administrative Costs Claimed by the Georgia Disability
                                                                     August 20, 2008
Adjudication Services (A-04-08-18013)

Quick Response Evaluation: Connecticut Department of Social
                                                                     July 31, 2008
Services' Request for Additional Funding (A-15-08-28120)

Performance Indicator Audit: Disability Determination Services
                                                                     July 11, 2008
Processing (A-02-07-17131)

Administrative Costs Claimed by the Nebraska Disability
                                                                     June 19, 2008
Determination Services (A-07-07-17170)

Performance Indicator Audit: Post-entitlement Actions
                                                                     May 16, 2008
(A-15-07-17130)

Performance Indicator Audit: Earnings Information
                                                                     May 2, 2008
(A-15-07-17126)

Assessing the Application Controls for the Social Security
Administration's Modernized Claims Systems and National              April 23, 2008
Disability Determination Services System (A-15-07-17155)



FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)              B-6
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
Performance Indicator Audit: Hearings and Appeals
                                                                     April 18, 2008
(A-15-07-17132)

Administrative Costs Claimed by the Colorado Disability
                                                                     April 14, 2008
Determination Services (A-07-07-17136)

The District of Columbia's Disability Determination Division's
Internal Controls over the Accounting and Reporting of               March 20, 2008
Administrative Costs (A-15-08-18019)

Performance Review of the Social Security Administration's
Contract with E-Structors, Inc., for the Disposal of Sensitive       March 20, 2008
Documents (Limited Distribution) (A-15-08-28012)

Administrative Costs Claimed by the Washington Disability
                                                                     March 20, 2008
Determination Services (A-09-07-17103)

Administrative Costs Claimed by the Connecticut Disability
                                                                     February 29, 2008
Determination Services (A-15-07-27176)

Administrative Costs Claimed by the Alabama Disability
                                                                     February 29, 2008
Determination Services (A-08-07-17151)

Process for Awarding Sole Source Acquisitions
                                                                     February 14, 2008
(A-15-07-17061)

Congressional Response Report: Unimplemented Audit
                                                                     January 31, 2008
Recommendations Since January 2001 (A-15-08-28105)

Administrative Costs Claimed by the Rhode Island Disability
                                                                     December 13, 2007
Determination Services (A-01-06-15069)

Inspector General Statement on the Social Security
Administration's Major Management Challenges                         November 7, 2007
(A-02-08-18061)

Fiscal Year 2007 Financial Statement Audit Oversight
                                                                     November 7, 2007
(A-15-07-17124)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)             B-7
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued
           Systems Security and Critical Infrastructure Protection

Reliability and Accuracy of the Social Security Administration's
Exhibit 300 Submissions to the Office of Management and               September 30, 2008
Budget (A-14-08-18018)

Fiscal Year 2008 Evaluation of the Social Security
Administration’s Compliance with the Federal Information              September 19, 2008
Security Management Act (A-14-08-18063)

Risks Posed by Digital Photocopiers Used in Social Security
                                                                      September 18, 2008
Administration Offices (A-06-08-28076)

The Social Security Administration's Enterprise-Wide
                                                                       September 2, 2008
Infrastructure Contract (A-14-08-18014)

The Social Security Administration's Implementation of Internet
                                                                       August 27, 2008
Protocol Version 6 (A-14-08-18064)

Quick Response Evaluation: The Social Security
Administration's Electronic Government Services                        August 11, 2008
(A-14-08-28113)

The Social Security Administration's Consulting Services
                                                                       August 5, 2008
Contract for the Time Allocation System (A-14-08-18020)

Follow-up: The Social Security Administration's Processing of
the Internal Revenue Service's Overstated Wage Referrals               June 16, 2008
(A-03-07-17067)

On-site Security Control and Audit Reviews at Program Service
                                                                       April 17, 2008
Centers (A-03-07-17064)

Compliance with Disability Determination Services Security
                                                                       February 6, 2008
Review Requirements (A-05-07-17082)

Follow-up on the Social Security Administration's Monitoring of
Potential Employee Systems Security Violations                         October 29, 2007
(A-14-07-17102)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               B-8
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued
                 Service Delivery and Electronic Government

Social Security Administration Field Offices' Management of
                                                                      September 15, 2008
Allegations (A-13-08-18030)
Help Group Services, Inc., a Fee-for-Service Representative
                                                                      September 9, 2008
Payee for the Social Security Administration (A-04-08-28040)
Hawaii Department of Human Services - An Organizational
Representative Payee for the Social Security Administration           September 2, 2008
(A-09-08-28045)

Individual Volume Representative Payee in Topeka, Kansas
                                                                       August 28, 2008
(A-07-08-18039)

Beneficiary and Recipient Use of "In Care of" Addresses
                                                                       August 19, 2008
(A-06-08-18015)

Quick Response Evaluation: Evaluation of the Knowledge
                                                                       July 31, 2008
Management Website (A-13-08-30117)

The Social Security Administration Field Offices' Training of
                                                                       July 28, 2008
Staff (A-13-08-18029)

Congressional Response Report: Financial Institutions
Deducting Fees and Garnishments from Social Security                   July 2, 2008
Benefits (A-15-08-28031)
Congressional Response Report: Social Security
Administration Payments Sent to Payday Loan Companies                  June 24, 2008
(A-06-08-28112)
Organizational Representative Payees Reporting Beneficiaries'
                                                                       April 23, 2008
Deaths (A-01-06-15068)

Social Security Administration Employees Acting as
                                                                       April 18, 2008
Representative Payees (A-06-07-17047)
Follow-up: The Social Security Administration's Management of
Its Federal Employees' Compensation Act Program                        March 31, 2008
(A-13-07-17074)
The Henry Ittleson Center - An Organizational Representative
                                                                       March 27, 2008
Payee for the Social Security Administration (A-02-07-27077)


FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)               B-9
   Management Challenge Area, Report Title and                              Report
         Common Identification Number                                       Issued

The Appeals Process for Medicare Part D Low-Income Subsidy
                                                                       March 14, 2008
Eligibility Determinations (A-06-08-18005)

Partnership for Strong Families, an Organizational
Representative Payee for the Social Security Administration            March 14, 2008
(A-04-07-17084)

The Social Security Administration's Income and Resource
Verification Process for Individuals Applying for Help with            February 19, 2008
Medicare Prescription Drug Plan Costs (A-06-06-16135)

The Social Security Administration's Ability to Reach Individuals
                                                                       January 11, 2008
Using the Social Security Statement (A-15-07-17095)

The Effectiveness of the Social Security Administration's
                                                                       October 19, 2007
800-Number Automation Service (A-02-07-17049)




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)            B-10
                                                                       Appendix C

Office of the Inspector General Contacts

Kim Byrd, Director                            Social Security Number Protection
Cylinda McCloud-Keal, Director

Mark Bailey, Director                         Management of the Disability Process
Walter Bayer, Director

Ron Gunia, Director                           Improper Payments and Recovery of
Judith Oliveira, Director                     Overpayments

Tim Nee, Director                             Internal Control Environment and
Victoria Vetter, Director                     Performance Measures

Kitt Winter, Director                         Systems Security and Critical
                                              Infrastructure Protection

Jim Klein, Director                           Service Delivery and Electronic
Shirley Todd, Director                        Government

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-02-09-19074.




FY 2008 IG Statement on SSA’s Major Management Challenges (A-02-09-19074)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
